OFFICE OF INSPECTOR GENERAL
           FOR THE
RAILROAD RETIREMENT BOARD




          SEMIANNUAL REPORT TO
              THE CONGRESS




APRIL 1, 2012 ▪ SEPTEMBER 30, 2012
                 UNITED STATES RAILROAD RETIREMENT BOARD

                             OFFICE OF INSPECTOR GENERAL


                                            October 31, 2012

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report is
submitted in accordance with Section 5 of the Inspector General Act of 1978, as
amended, and provides a descriptive summary of our activities and
accomplishments during this semiannual period. The Act requires that you
transmit this report, along with any comments you may wish to make, to the
appropriate Congressional committees and subcommittees within 30 days.

During this reporting period, the Office of Audit:

   •   completed an inspection to determine if the RRB adequately monitored
       representative payees;
   •   inspected the RRB’s continuous monitoring activities of the Financial
       Interchange system;
   •   published the results of our audit regarding the impact of a new legal
       opinion related to RUIA section 12(o) liens;
   •   audited the agency’s Railroad Medicare Part B eligibility and premium
       collection process; and
   •   published a Management Information Report projecting the financial
       impact of the RRB’s unilateral disability freeze cases on the financial
       interchange.

Our criminal investigators achieved 19 arrests, 42 criminal convictions,
37 indictments and informations, 13 civil judgments, and more than $14.9 million
in financial accomplishments resulting from OI’s investigative work, including joint
investigations. Additionally, 3 former Long Island Rail Road workers pled guilty to
charges stemming from their involvement in a brazen occupational disability
fraud scheme and 20 additional former workers were charged and arrested.
Details relating to this ongoing investigation are located on page 18 of our
Semiannual Report to the Congress.




844 N RUSH STREET CHICAGO IL 60611-2092                             Printed on recycled paper
We sincerely appreciate the agency’s cooperation during the performance of our
audits and investigations and look forward to a continued working relationship.

                                              Sincerely,

                                              Original Signed by

                                              Martin J. Dickman
                                              Inspector General
                                              TABLE OF CONTENTS


INTRODUCTION ............................................................................................................. 1
   Railroad Retirement Board .......................................................................................... 1
   Board Members ........................................................................................................... 1
   Office of Inspector General .......................................................................................... 1
EXECUTIVE SUMMARY................................................................................................. 2
   Office of Audit .............................................................................................................. 2
   Office of Investigations ................................................................................................ 3
APRIL 1, 2012 – SEPTEMBER 30, 2012 ACCOMPLISHMENTS ................................... 4
   Office of Audit .............................................................................................................. 4
      Inspection of the Railroad Retirement Board’s Representative Payee Monitoring ... 4
      Inspection of the Railroad Retirement Board’s Financial Interchange System
      Continuous Monitoring ............................................................................................. 7
      Audit of the Impact of a New Legal Opinion Related to RUIA Section 12(o) Liens .. 8
      Audit of the Railroad Medicare Part B Eligibility and Premium Collection Process 10
      Projected Financial Impact of Railroad Retirement Board Unilateral Disability
      Freeze Cases on the Financial Interchange ........................................................... 12
      Management Decisions and Implementation ......................................................... 14
   Office of Investigations .............................................................................................. 15
      Current Caseload ................................................................................................... 15
      Caseload and Potential Fraud Loss By Case Type ................................................ 16
      Investigative Accomplishments .............................................................................. 17
   Representative Investigations .................................................................................... 18
      Disability Investigations .......................................................................................... 18
      Unemployment-Sickness Insurance Investigations ................................................ 20
      Retirement-Survivor Benefits and Representative Payee Investigations ............... 22
      Railroad Medicare Investigations ........................................................................... 24
      Other ...................................................................................................................... 26
      Civil Enforcement Results ...................................................................................... 27
   Hotline Contacts ........................................................................................................ 28
OTHER OVERSIGHT ACTIVITIES ............................................................................... 29
                                             TABLE OF CONTENTS


   Occupational Disability Program ................................................................................ 29
   OIG Alerts .................................................................................................................. 30
   American Recovery and Reinvestment Act of 2009................................................... 30
OUTREACH ACTIVITIES.............................................................................................. 31
OPERATIONAL ISSUES............................................................................................... 32
   National Railroad Investment Trust............................................................................ 32
LEGISLATIVE & REGULATORY REVIEW ................................................................... 33
APPENDICES ............................................................................................................... 34
   Appendix A – Office of Inspector General Reports and Other Publicly Available
   Papers Issued ............................................................................................................ 35
   Appendix B – Audit Reports with Questioned Costs or with Recommendations That
   Funds be Put to Better Use ....................................................................................... 36
   Appendix C – Report on Receivables, Waivers, and Recoveries .............................. 37
   Appendix D – Significant Matters ............................................................................... 39
   Appendix E – Peer Reviews ...................................................................................... 41
   Appendix F – Reports Prepared by Management ...................................................... 42
   Appendix G – Reporting Requirements ..................................................................... 49
   Appendix H – Acronyms ............................................................................................ 50
   Appendix I – Legal References .................................................................................. 51
    Office of Inspector General for the Railroad Retirement Board

      INTRODUCTION
      Railroad Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers comprehensive disability,
unemployment-sickness insurance, and retirement-survivor benefit programs for the
nation's railroad workers and their families. These programs are codified under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
respectively. During fiscal year (FY) 2011, the RRB paid approximately $11.1 billion in
retirement-survivor and unemployment-sickness benefits to roughly 607,000
beneficiaries. The RRB’s central mission is to pay accurate and timely RRA and RUIA
benefits.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
consultation with the Centers for Medicare and Medicaid Services, awards and monitors
the single nationwide Medicare Part B Services contract. During FY 2011, the Railroad
Medicare contractor paid approximately $868 million in Part B medical insurance
benefits on behalf of roughly 453,000 Railroad Medicare beneficiaries.

      Board Members

The Board consists of three members who are appointed, with the advice and consent
of the Senate, by the President of the United States. One member is appointed upon
the recommendation of railroad employers, another member is appointed upon the
recommendation of railroad labor organizations, and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.

      Office of Inspector General

The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
Office of Inspector General (OIG) for the RRB. The 1988 amendments to the Inspector
General Act added the RRB to the list of covered agencies.


             April 1, 2012– September 30, 2012 │ P a g e 1
    Office of Inspector General for the Railroad Retirement Board

The Inspector General is a Presidential Appointee, with Senate confirmation, who
serves as an independent and objective voice to both the RRB Board Members and the
Congress. It is the Inspector General’s responsibility to promote economy, efficiency,
and effectiveness in the RRB’s programs and operations. To that end, the OIG conducts
audits/evaluations, management reviews, and inspections of the RRB’s programs and
operations. As a product of its efforts, the OIG offers recommendations for agency
improvement to RRB management. The OIG also identifies and investigates cases of
waste, fraud, and abuse in the RRB’s programs and operations. The OIG works closely
with Federal prosecutors and makes the appropriate referrals for criminal prosecution,
civil prosecution, monetary recovery, or administrative sanctions.

The OIG has three operational components: the immediate Office of the Inspector
General, the Office of Audit, and the Office of Investigations. The OIG conducts
operations from several locations including the RRB headquarters in Illinois and
investigative field offices in California, Florida, Pennsylvania, New York, Texas, and
Virginia. These field offices provide increased investigative presence and aide in the
effective and efficient coordination of joint investigations with other Inspector General
offices and law enforcement agencies.

EXECUTIVE SUMMARY
       Office of Audit

The Office of Audit (OA) conducts financial, performance, and compliance audits and
evaluations/inspections of the RRB’s programs and operations. During this reporting
period, the OA:

   •   completed an inspection to determine if the RRB adequately monitored
       representative payees;
   •   inspected the RRB’s continuous monitoring activities of the Financial Interchange
       system;
   •   published the results of their audit regarding the impact of a new legal opinion
       related to RUIA section 12(o) liens;
   •   audited the agency’s Railroad Medicare Part B eligibility and premium collection
       process; and
   •   published a Management Information Report projecting the financial impact of
       the RRB’s unilateral disability freeze cases on the financial interchange.

              April 1, 2012– September 30, 2012 │ P a g e 2
     Office of Inspector General for the Railroad Retirement Board

OA’s activities, during this reporting period, are discussed in further details on pages 4
through 13 of this report. All publicly available reports are available on our website at
www.rrb.gov/oig.

         Office of Investigations
The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
presenting RRB benefit fraud cases for prosecution. OI conducts investigations
throughout the United States relating to:

    •    the fraudulent receipt of RRB disability, unemployment-sickness, and retirement-
         survivor benefits;
    •    Railroad Medicare fraud;
    •    false reporting by railroad employers; and
    •    criminal violations and misconduct by RRB personnel.

Investigative efforts can result in criminal convictions; civil judgments and penalties;
administrative recovery of program benefit funds; and/or administrative sanctions.

From April 1, 2012 through September 30, 2012, OI achieved:

    •    19 arrests;
    •    37 indictments and informations;
    •    42 convictions;
    •    13 civil judgments;
    •    43 referrals to the Department of Justice; and
    •    more than $14.9 million 1 in financial accomplishments.

Defendants, in the aggregate, were sentenced to almost 59 years of prison, 115.5 years
of probation, and 150 hours of community service. Additional details regarding OI’s
activities are discussed on pages 18 through 27. Of particular interest, OI’s continuing
Long Island Rail Road occupational disability fraud investigation is discussed on
page 18.


1
  The total amount of financial accomplishments reflect fraud amounts related to programs administered exclusively by
the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in the
disposition resulting from the investigation.


                  April 1, 2012– September 30, 2012 │ P a g e 3
    Office of Inspector General for the Railroad Retirement Board


       APRIL 1, 2012 – SEPTEMBER 30, 2012
       ACCOMPLISHMENTS
       Office of Audit
Congress established the OIG to provide independent oversight of the RRB. Within the
OIG, the mission of OA is to promote economy, efficiency, and effectiveness in the
administration of the RRB’s programs and operations; and to detect and prevent fraud,
waste, and abuse. Through the Inspector General, OA keeps Board Members and the
Congress informed of current and potential problems and deficiencies in the RRB’s
operations. OA also tracks the agency’s progress towards corrective action.

Brief summaries of all audits completed during this semiannual reporting period follow.

       Inspection of the Railroad Retirement Board’s
       Representative Payee Monitoring
Background

During this reporting period, the OIG conducted an inspection of the RRB’s
representative payee monitoring. It is the policy of the RRB that every adult has the right
to manage his payments unless found to be incompetent. The RRA authorizes the RRB
to select and pay benefits to individuals or organizations on behalf of annuitants
deemed incapable of managing their own financial affairs. These authorized individuals
or organizations are known as representative payees (rep payees). Rep payees are
charged with managing RRB benefits for the welfare of the annuitants. RRB procedures
provide that rep payees are to be monitored to determine if the annuitants’ rights are
being protected.

Objectives

The objectives of our inspection were to determine if the RRB’s monitoring efforts over
rep payees ensured that benefits paid to rep payees were used for the needs of the
annuitants, and to identify opportunities to improve the effectiveness and efficiency of
RRB’s rep payee monitoring.



              April 1, 2012– September 30, 2012 │ P a g e 4
       Office of Inspector General for the Railroad Retirement Board

Findings

Our inspection determined that the RRB’s rep payee monitoring program did not
adequately ensure that benefits paid to rep payees were used for the needs of the
annuitants. The inspection disclosed the following weaknesses that needed to be
strengthened:

   •    controls were not sufficient to ensure the protection of annuitants’ rights;
   •    self-reporting and the RRB’s selection methodology increased the risk of abuse,
        neglect, or misuse of funds;
   •    “high-risk” rep payees were not readily identifiable;
   •    face-to-face interviews were under-utilized in rep payee monitoring;
   •    system reporting lacked data for management decision making;
   •    policies and procedures were incomplete; and
   •    RRB did not check rep payees for criminal and/or misdemeanor offenses.

We also identified opportunities to improve the effectiveness and efficiency of RRB’s
rep payee monitoring in the following areas:

   •    timeliness of monitoring activities needed improvement;
   •    “parent-for-child” monitoring did not require an accounting of benefits;
   •    documentation for some rep payees was incomplete; and
   •    controls to ensure proper coding of rep payees were insufficient.

Recommendations

To address the identified weaknesses, we recommended that agency management:
   •    re-communicate the purpose of rep payee monitoring to applicable employees;
   •    perform a risk analysis for the rep payee program;
   •    re-evaluate existing controls and implement additional controls to ensure that the
        rights of the annuitants are protected;
   •    request and review supporting documentation in order to properly analyze
        rep payee disclosures;
   •    re-evaluate the selection methodology for determining which cases will be
        monitored in any given year;
   •    implement additional controls to improve the process for identifying and
        monitoring “high-risk” rep payees;


               April 1, 2012– September 30, 2012 │ P a g e 5
    Office of Inspector General for the Railroad Retirement Board

   •   ensure that the Bureau of Field Service representatives conduct and document
       face-to-face interviews for questionable situations involving rep payees;
   •   expand the Universal System Tracking and Reporting Program (USTAR) to
       include the results of monitoring;
   •   ensure that USTAR contains all relevant information on the monitoring process or
       reference where the information is available;
   •   provide additional training to all USTAR users who perform rep payee monitoring;
   •   implement controls to ensure centralized oversight of the rep payee monitoring
       process;
   •   strengthen USTAR procedures to ensure consistency throughout the entire
       Bureau of Field Service;
   •   revise the rep payee monitoring procedures to ensure complete documentation
       of all monitoring activities performed, including any supervisory reviews;
   •   research and implement a cost-effective method to use existing incarceration
       data and/or third party database information to assess the rep payees’ criminal
       histories during monitoring;
   •   update current monitoring procedures to include steps to check rep payees for
       criminal and/or misdemeanor offenses against available databases, and use this
       information to determine the continued suitability of the rep payees;
   •   strengthen controls over the timeliness of rep payee monitoring;
   •   establish procedures for a comprehensive "parent-for-child" rep payee monitoring
       program which ensures that the intent of the regulations for rep payee
       accountability is carried out;
   •   ensure that all rep payee documentation is properly maintained;
   •   provide training to the Bureau of Field Service staff to ensure consistent practices
       for imaging and indexing documentation for rep-payee monitoring activities; and
   •   design controls to correctly identify all rep payees.

Management’s Response

The Office of Programs and the Bureau of Field Service agreed to take corrective action
for 16 of our 20 recommendations. They disagreed with the remaining four
recommendations. They also expressed concern that this report lacks detail about the
number and type of exceptions found.




              April 1, 2012– September 30, 2012 │ P a g e 6
    Office of Inspector General for the Railroad Retirement Board

OIG’s Comments on Management’s Response

The OIG maintains that the implementation of all 20 of our recommendations would help
to ensure that the agency is fully achieving the objective of rep payee monitoring, which
is to determine if the annuitants’ rights are being protected.

Our inspection was not designed to quantify all exceptions; it was designed to evaluate
controls. We believe that the report contains sufficient detail regarding the control
weaknesses identified in the RRB’s rep payee monitoring program to support our
conclusions.

      Inspection of the Railroad Retirement Board’s Financial
      Interchange System Continuous Monitoring
The OIG conducted an inspection of the activities at the RRB for the continuous
monitoring of the Financial Interchange (FI) system to determine adherence with
existing policy, procedures, guidance, and standards. Because the FI system inherits
many of its controls from the Agency Enterprise General Information Support System
(AEGIS) this inspection also includes an evaluation of the continuous monitoring
documentation prepared for the AEGIS system. This inspection will support the OIG’s
mandated FY 2012 Federal Information Security Management Act of 2002 (FISMA)
evaluation.

The objective of continuous monitoring is to determine if the complete set of planned,
required, and deployed security controls within an information system or inherited by the
system continue to be effective over time. Continuous monitoring is an important activity
in assessing the security impact on an information system resulting from planned and
unplanned changes to the hardware, software, firmware, or environment of operation. In
FY 2011, a contractor was hired by the RRB to plan and perform continuous monitoring
of the controls over the RRB’s FI and AEGIS systems.




             April 1, 2012– September 30, 2012 │ P a g e 7
        Office of Inspector General for the Railroad Retirement Board

Our evaluation determined that activities conducted at the RRB for the continuous
monitoring process of the FI and AEGIS systems do not fully comply with existing
policy, procedures, guidance, and standards because evidence suggests that an
ineffective review process was performed over contractor deliverables. Therefore, we
will continue to cite the agency with a significant deficiency in the internal control
structure over the review of contractor deliverables associated with the risk
management framework. We made eleven detailed recommendations to RRB
management related to:

       •   improving the controls over the review process for the continuous monitoring
           deliverables received from the contractor and approved by the RRB;
       •   allocating the necessary resources to allow for an effective review of the
           continuous monitoring documentation; and
       •   effectively managing and consistently updating the FI and agency-wide Plan of
           Action and Milestones.

Agency Management has agreed to take corrective actions for all recommendations.

           Audit of the Impact of a New Legal Opinion Related to
           RUIA Section 12(o) Liens
Background

The OIG conducted an audit to determine the impact of a new legal opinion related to
RUIA Section 12(o) liens. In this legal opinion, the RRB’s General Counsel concluded
that the RRB should not allow the amount of its lien to be reduced for medical and
hospital expenses paid under the Health and Welfare Agreement, as was the agency’s
previous practice. 2

Generally, railroad employees cannot receive workers’ compensation for on-the-job
injuries. Instead, they sue their employers for injury claims, and then apply to receive
sickness benefits from the RRB during the period of injury. The RRB pays sickness
benefits to the railroad employee during the period of injury, and subsequently sets up a
lien against any future settlements to recover the amount of sickness benefits paid. The
agency refers to this lien as a 12(o) lien (hereafter referred to as “the lien”). Sickness
benefits are paid out of the RRB’s Railroad Unemployment Insurance Trust Fund.

2
    RRB Legal Opinion, L-2011-06, dated July 22, 2011. Hereafter referred to as “the legal opinion.”

                     April 1, 2012– September 30, 2012 │ P a g e 8
    Office of Inspector General for the Railroad Retirement Board


In 1975, railroad management and railroad labor entered into an agreement called the
Health and Welfare Agreement (hereafter referred to as “the Agreement”). This
Agreement provided for the railroad employers to set up a separate insurance policy to
pay for medical and hospital expenses for injured employees. The expenses covered by
the separate policy would otherwise have been the responsibility of the railroad
employer.

In the legal opinion, the RRB’s General Counsel stated that if medical and hospital
expenses were paid through the Agreement, these expenses could not be deducted
from the RRB’s lien. Prior to the legal opinion, the RRB deducted all submitted medical
and hospital expenses when a railroad employee provided them for consideration in
order to reduce the lien against the settlement from the railroad employer.

Objective

The objective of our audit was to determine the potential amount of dollars not
recovered by the Railroad Unemployment Insurance Trust Fund due to the RRB’s
previous practice of reducing its lien amount by the amount of medical and hospital
expenses paid pursuant to the Agreement.

Findings

We found that:

   •   the Railroad Unemployment Insurance Trust Fund would have potentially
       recovered approximately $300,000 more in sickness benefits if the policy
       prescribed by the legal opinion had been in effect in calendar years 2008
       through 2010;
   •   data for 12(o) lien reductions was not readily available;
   •   some 12(o) lien documentation was incomplete; and
   •   new policies and procedures for 12(o) liens had not been developed.

Recommendations

To address the problems found, we recommended that the Office of Programs:

   •   implement a comprehensive tracking system for 12(o) liens;


             April 1, 2012– September 30, 2012 │ P a g e 9
    Office of Inspector General for the Railroad Retirement Board

   •   strengthen existing controls to ensure that procedures provide explicit
       instructions regarding the documentation and approvals required for 12(o) lien
       decisions;
   •   develop policies and procedures for 12(o) liens based on the legal opinion,
       without further delay; and
   •   review all 12(o) lien reductions that were processed subsequent to the legal
       opinion and adjust them, if necessary.

Management’s Response

The Office of Programs agreed to take corrective action for all four of our
recommendations. They did, however, provide a general comment on the discussion in
the report related to the delays in the audit staff not being able to obtain the information
needed to perform their analysis. They stated that the information needed was not
readily available because there was no business requirement to maintain the
information in the form requested. They also stated that had the Office of Programs
been asked to assist in either the compilation of the data, or simply in the identification
of data sources to be used, they believe that the timeframe for information gathering
could have been substantially reduced.

OIG’s Comments to Management’s Response

The OIG maintains that they did speak to the Office of Programs’ staff prior to
requesting the data from the Bureau of Information Services and were told that the data
we were requesting was not maintained in a format that we could use to satisfy our
audit objectives. Furthermore, the Office of Programs staff would have had to manually
extract the information in the same manner that OIG auditors did, therefore saving no
time.

       Audit of the Railroad Medicare Part B Eligibility and
       Premium Collection Process
The OIG conducted an audit of the Railroad Medicare Part B Eligibility and Premium
Collection Process. The audit focused on the eligibility of Railroad Medicare
participants, the accuracy of Part B premiums and penalties, and the adequacy of
documentation acquired and maintained when Part B is declined.


              April 1, 2012– September 30, 2012 │ P a g e 10
       Office of Inspector General for the Railroad Retirement Board

Key Findings

The OIG identified the following weaknesses:

   •    a penalty amount was omitted from a manual Part B Medicare premium
        determination;
   •    ineffective controls exist for manually determining Railroad Medicare entitlement
        dates for disabled children; and
   •    inconsistencies were found between the RRB’s Medicare computer system
        (Medicare Information Recorded, Transmitted, Edited and Logged (MIRTEL))
        and the Centers for Medicare & Medicaid Services’ system records; in both
        instances RRB dual annuitant beneficiary records were involved.

Key Recommendations

To address the identified weaknesses, we recommended that RRB officials:

   •    take the necessary actions to establish and collect the receivable amount of the
        penalty omitted;
   •    issue a reminder alert with instructions for correctly processing closed period
        manual penalty amounts;
   •    provide further training to claims examiners that will address the risks of making
        an incorrect manual determination when processing Medicare claims for disabled
        children; and
   •    evaluate the impact of the inconsistent RRB dual annuitant beneficiary records in
        MIRTEL and ensure that these records do not present a risk for processing
        duplicate Medicare claims.

Management’s Response

The Office of Program’s has initiated corrective action addressing two of our
recommendations and has agreed to address the other two recommendations.




              April 1, 2012– September 30, 2012 │ P a g e 11
      Office of Inspector General for the Railroad Retirement Board

         Projected Financial Impact of Railroad Retirement Board
         Unilateral Disability Freeze Cases on the Financial
         Interchange
The OIG published a Management Information Report regarding the financial impact of
RRB unilateral disability freeze cases on the FI. To receive an annuity based upon a
disability from the RRB, a railroad employee must be found disabled under the RRA. If
an employee is found disabled under the RRA, the RRB will determine whether he/she
qualifies for a period of disability, commonly referred to as a “disability freeze,” as
defined in the Social Security Act. 3

When SSA concurs with the RRB’s decision to grant a disability freeze, the RRB
recovers the social security equivalent of the RRA disability benefits from the SSA’s
disability insurance trust fund through the FI. The FI serves as a funds transfer
mechanism between the RRB and SSA. FI amounts are computed by the RRB’s
Bureau of the Actuary using statistical sampling methods.

When SSA does not concur with the RRB’s decision to grant a disability freeze, the
RRB independently makes a unilateral disability freeze decision. None of the benefits
are recovered as social security equivalents through the FI, when a unilateral freeze
determination is made by the RRB. Because the RRA trust fund bears the entire cost of
the RRB benefits, a subsequent change to an annuitant’s condition could have a
potential long-term impact on the FI.

Key Findings

Our review found that the Office of Programs does not submit unilateral disability freeze
cases to SSA for reconsideration, when the RRB determines that the disability
annuitant’s condition has worsened. Because the RRA trust fund bears the entire cost
of the disability benefits, a subsequent change in the annuitant’s condition could have a
potential long-term impact on the FI. The financial impact of unilateral disability freeze
cases is projected to range between $1 million and $32 million annually in potential
reimbursement to the RRA trust fund through the FI process.


3
  A disability freeze protects disabled workers and their families from a loss of benefits by freezing the worker’s wage
record and excluding earnings during the period of disability from the benefit determination.



                   April 1, 2012– September 30, 2012 │ P a g e 12
       Office of Inspector General for the Railroad Retirement Board

Key Recommendations

Resubmission of unilateral disability freeze cases to SSA when the annuitant’s condition
has worsened could result in additional RRA trust fund reimbursement of the social
security equivalent of the RRA disability benefit through the FI.

To address this issue, we recommended that the Office of Programs should:

   •    review the existing 1,600 unilateral disability freeze cases to determine if the
        annuitant’s condition has worsened, and submit any reclassified cases to SSA for
        reconsideration; and
   •    revise the policies and procedures for the continuing disability review process to
        require that reclassified unilateral disability freeze cases be submitted to SSA for
        reconsideration when an annuitant’s condition has worsened.




               April 1, 2012– September 30, 2012 │ P a g e 13
    Office of Inspector General for the Railroad Retirement Board

      Management Decisions and Implementation
As part of its oversight activities, the OIG tracks the agency’s implementation of audit
recommendations. Additionally, OMB Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.

                                Management Decisions
           Requiring Management Decision on April 1, 2012                 0
           Pending Management Decision for New
                                                                          0
           Recommendations
           Management Decision on Previous Recommendations                0
           Recommendations Pending Management Decision on
                                                                          0
           September 30, 2012



                                   Corrective Action
           Recommendations Requiring Action on April 1, 2012             191
           Recommendations Issued During Reporting Period                 40
           Corrective Actions Completed During Reporting Period           32
           Recommendations Rejected During Reporting Period               4
           Final Actions Pending on September 30, 2012                   195




             April 1, 2012– September 30, 2012 │ P a g e 14
      Office of Inspector General for the Railroad Retirement Board

         Office of Investigations

OI's primary objective is to identify, investigate, and refer for prosecution or monetary
recovery action cases of waste, fraud, or abuse in the RRB’s programs. OI also seeks
to prevent and deter program fraud by reporting systemic weaknesses identified through
investigative work. In order to maximize the impact of its resources, OI continues to
pursue cooperative investigative activities in coordination with other Inspectors General
such as the Office of Inspector General for the Department of Health and Human
Services and other law enforcement agencies, such as the Federal Bureau of
Investigation and the U.S. Secret Service.

         Current Caseload

During this semiannual reporting period, OI reviewed 150 matters and opened 96 new
cases.

                                       Investigative Caseload Data
           Investigative Cases Open as of April 1, 2012                                          488
           Investigative Cases Opened During Reporting Period                                     96
           Investigative Cases Closed During Reporting Period                                    129
           Investigative Cases Open as of September 30, 2012                                     455

As of September 30, 2012, OI’s investigative case load totaled 455 matters which
represent approximately $124.2 million 4 in potential fraud losses. The chart located on
the next page reflects the distribution of OI cases and potential fraud losses by RRB
major program area.




4
  This reflects potential fraud amounts related to programs administered exclusively by the RRB and potential fraud
amounts from other Federal programs such as Medicare or Social Security which have been identified during OI’s joint
investigative work.


                  April 1, 2012– September 30, 2012 │ P a g e 15
     Office of Inspector General for the Railroad Retirement Board

        Caseload and Potential Fraud Loss By Case Type


                      67 Cases               39 Cases
                   $117.5 Million            $760,000
                                                                        Other*
                                                                        Disability
                                                                        Unemployment-Sickness
     57 Cases
                                                                        Retirement
    $1.4 Million
                                                                        Medicare

                                                              131 Cases
                                                            $2.5 Millon**




                    161 Cases
                   $2.1 Million



*Other case type is an amalgam of various types of cases involving matters such as misconduct by RRB
employees, threats against agency employees, false reporting by railroad employers, and others.

**Our case tracking system counts the Long Island Rail Road occupational disability fraud investigation
(discussed in further details on page 18) as a single case; however, this case has the potential to
manifest into more than 1,000 investigations. Additionally, this potential is not reflected in the above fraud
loss.




                   April 1, 2012– September 30, 2012 │ P a g e 16
      Office of Inspector General for the Railroad Retirement Board

          Investigative Accomplishments

                                                          April 1, 2012 –
                     Action                                                                 Fiscal Year 2012
                                                        September 30, 2012
Referrals to the Department of Justice                              43                                95

Indictments/Informations                                            37                               106
Arrests                                                             19                                34
Convictions                                                         42                                85
Civil Complaints                                                     1                                10
Civil Judgments                                                     13                                26
Restitution and Fines 5                                       $11.8 Million                    $31.8 Million
Civil Damages and Penalties 6                                 $2.9 Million                     $45.1 Million
Investigative Recoveries 7                                      $237,000                          $482,000
Community Service Hours                                             150                              640




 5
   The total amount of financial accomplishments in this table reflect fraud amounts related to programs administered
 exclusively by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were
 included in the disposition resulting from the investigation.
 6
   See above footnote.
 7
   RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery action are
 expressed as investigative recoveries.


                   April 1, 2012– September 30, 2012 │ P a g e 17
        Office of Inspector General for the Railroad Retirement Board

           April 1, 2012 – September 30, 2012
           Representative Investigations

           Disability Investigations

    OI conducts fraud investigations relating to the RRB's disability program. Railroad
    workers who are awarded an RRB disability annuity are subject to work restrictions and
    earnings limitations. Disability benefit fraud often involves sophisticated schemes to
    hide disqualifying work activities from the RRB.

    During this reporting period, OI obtained six convictions and two civil judgments in
    disability fraud cases. The defendants received, in the aggregate, sentences totaling
    almost 3 years of prison, 20 years of probation, 150 hours of community service, and
    were ordered to pay more than $1 million in restitution, fines, and civil
    damages/penalties. Furthermore, twenty additional former Long Island Rail Road
    employees were charged and arrested in connection with our ongoing occupational
    disability fraud investigation described below. 8

    Descriptions of representative cases completed during this reporting period follow.

           3 Annuitants Plead Guilty and 20 Additional Annuitants Are
           Arrested in Connection with OI’s Continuing Long Island Rail
           Road Occupational Disability Fraud Investigation
During this semiannual reporting period, 3 former Long Island Rail Road employees
pled guilty to charges stemming from their involvement in a brazen occupational
disability fraud scheme and 20 additional former employees were charged and arrested.
Agents continue to investigate this complex occupational disability fraud scheme
allegedly perpetrated by a number of former Long Island Rail Road employees, doctors,
and disability facilitators.

As alleged in a publicly available complaint, OI’s joint investigation revealed that three
doctors used their medical practices to run “disability mills” charging a premium of
approximately $800 to $1,000 in exchange for fraudulent medical documentation

8
    All charges are accusations and the defendants are presumed innocent until proven guilty.



                    April 1, 2012– September 30, 2012 │ P a g e 18
    Office of Inspector General for the Railroad Retirement Board

designed to qualify their “clients” for RRB occupational disability annuities. In fact, the
doctors allegedly helped former Long Island Rail Road employees “pre-plan” their
disability onset dates so that they would coincide with their anticipated retirement.

It is also alleged that some of the former Long Island Rail Road employees used
disability “facilitators” to increase their likelihood of being awarded an occupational
disability annuity. The facilitators, allegedly, assisted and coached their disability clients
on how to complete the RRB occupational disability application in order to gain
approval. One of the facilitators charged in this scheme is a former RRB employee.

This investigation remains ongoing.

       Annuitant Conceals Income from RRB and the IRS
OI Special Agents worked with agents from the Internal Revenue Service (IRS) to
investigate an RRB disability annuitant who owned and operated a scrap metal
business. This joint investigation revealed that the annuitant actively concealed his
business income from the RRB, including filing a fraudulent Continuing Disability
Report which certified that he did not have any gross or net income, and the IRS.

This case was referred to the U.S Attorney’s Office for the Northern District of West
Virginia. The annuitant was indicted and eventually pled guilty to Theft of Government
Funds and Attempt to Evade and Defeat Tax. He was sentenced to a total of 30 months
of prison, 48 months of probation, and more than $211,000 in restitution.

       Disability Annuitant Pleads Guilty and Consents to the
       Suspension of RRB Benefits
Special Agents investigated a self-employed RRB disability annuitant who owned and
operated a janitorial cleaning service but reported earnings under his spouse’s social
security number to avoid detection by the RRB.

This case was referred to the U.S. Attorney’s Office for the Northern District of Ohio
which filed an indictment against the annuitant. He entered into a plea agreement with
the U.S. Attorney’s Office and pled guilty to Failure to Report Information to the RRB.
He was sentenced to 5 years of probation with 12 weeks of weekend confinement, 150
hours of community service, more than $93,000 in restitution and fines, and suspension
of his RRB disability benefits.

              April 1, 2012– September 30, 2012 │ P a g e 19
    Office of Inspector General for the Railroad Retirement Board

       Annuitant Conceals Income from RRB and the IRS
OI Special Agents worked with agents from the IRS to investigate an RRB disability
annuitant who owned and operated a pool hall which also housed illegal gambling
devices. The joint investigation revealed that the annuitant failed to report his business
income to both the RRB and the IRS.

This case was referred to the U.S. Attorney’s Office for the Middle District of
Pennsylvania. The annuitant pled guilty to Theft of Government Funds and Tax
Evasion. He was sentenced to 3 months of prison, 3 months of home confinement,
restitution of more than $131,000, and forfeiture of additional cash and assets.

       Unemployment-Sickness Insurance Investigations

Unemployment-Sickness Insurance benefit fraud typically involves individuals claiming
and receiving Unemployment Insurance (UI) or Sickness Insurance (SI) benefits while
working or collecting state administered unemployment benefits. OI receives the
majority of these cases from the RRB’s Disability, Sickness, and Unemployment
Benefits Division as a result of information developed through state wage matching
programs. The RRB conducts computer wage matches with various states to identify
claimants who may have collected RRB administered UI or SI benefits on the same
days they received wages from a private employer or on the same days they received
state administered unemployment benefits.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, more than 91% of OI’s current UI fraud cases involve
extended UI benefits.

During this reporting period, OI obtained 17 convictions and 4 civil judgments for UI-SI
fraud cases. Defendants in these cases received, in the aggregate, more than
15 months of prison, 45.5 years of probation, and were ordered to pay more than
$276,000 in restitution, fines, and civil damages/penalties.




              April 1, 2012– September 30, 2012 │ P a g e 20
    Office of Inspector General for the Railroad Retirement Board

The following are examples of UI-SI cases completed during this reporting period.

       UI Claimant Imprisoned for Fifteen Months
OI initiated this investigation of an RRB UI claimant based upon an agency referral.
Based upon their investigation, OI determined that beginning July 2008 through October
2009 the claimant applied for RRB UI benefits on the same days he was working for two
private employers. The claimant’s failure to report his work and earnings to the RRB
caused him to fraudulently receive over $17,600 in UI benefits.

This case was referred to the U.S. Attorney’s Office for the Middle District of
Pennsylvania. The claimant pled guilty to a one count felony information for False
Claims. He was sentenced to 15 months of prison, 2 years of supervised release, full
restitution, and a special assessment.

       UI Claimant Prosecuted in State Court
OI initiated this investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during July 2009 through March 2010 the
claimant applied for RRB UI benefits on many of the same days he worked for a private
employer. The claimant’s failure to report his employment and earnings to the RRB
caused him to fraudulently receive over $11,000 in UI benefits.

This case was referred to the Columbiana County Prosecutor’s Office in Lisbon, Ohio.
The claimant subsequently pled guilty to Theft by Deception. He was sentenced to
3 years of probation and ordered to pay over $11,000 in restitution.

       UI Claimant Sentenced to Three Years of Probation
OI initiated an investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during the period of October 2010 through
March 2011, the claimant collected RRB UI benefits on the same days he was working
for a private employer. The claimant failed to report his work and earnings to the RRB
and fraudulently received more than $2,000 in UI benefits.

This case was referred to the U.S. Attorney’s Office for the Southern District of Illinois.
The U.S. Attorney’s Office filed an information against the annuitant for Theft of



              April 1, 2012– September 30, 2012 │ P a g e 21
    Office of Inspector General for the Railroad Retirement Board

Government Funds. The annuitant pled guilty and was sentenced to three years of
probation and full restitution.

       UI Claimant Fails to Report Work and Earnings to the RRB
OI initiated this investigation of an RRB UI claimant based upon an agency referral. OI’s
subsequent investigation determined that during two separate time periods, August
2009 through April 2010 and November 2010 through April 2011, the claimant collected
RRB UI benefits on the same days he was working for private employers. The
claimant’s failure to report his work and earnings to the RRB caused him to fraudulently
receive more than $12,000 in UI benefits.

This case was referred to the U.S. Attorney’s Office for the Western District of Virginia.
The U.S. Attorney’s Office filed an information against the annuitant for Fraudulent
Statement or Claim. The annuitant pled guilty and was sentenced to 10 days of prison,
a year of probation, and full restitution.

       Retirement-Survivor Benefits and Representative Payee
       Investigations
The RRA provides retirement-survivor benefits for qualified railroad workers and their
families. RRB retirement-survivor benefit fraud typically involves:

   •   an individual failing to report information to the RRB that may disqualify the
       annuitant from receiving benefits;
   •   instances of theft or fraudulent cashing of retirement benefit checks by someone
       other than the authorized RRB annuitant; or
   •   an individual designated to receive RRB benefits on behalf of an RRB annuitant
       fraudulently using the funds for their own personal use.

During this reporting period, OI obtained six convictions and one civil judgment for
retirement benefit fraud cases. Defendants in these cases received, in the aggregate,
more than 20 years of prison, 20 years of probation, and were ordered to pay more than
$4.7 million in restitution, fines, and civil damages/penalties.




              April 1, 2012– September 30, 2012 │ P a g e 22
    Office of Inspector General for the Railroad Retirement Board

The following are brief summaries for each case.

      Annuitant Misuses RRB Benefits
OI initiated an investigation against an annuitant who received RRB benefits to care for
her minor child. OI’s investigation revealed that in March 2006 the minor child had been
placed in foster care but the annuitant failed to contribute her RRB benefits towards the
financial needs of the child.

This case was referred to the U.S. Attorney’s Office for the District of Wyoming. The
U.S. Attorney’s Office charged her with one count Failure to Report Information to the
RRB. The U.S. District Court found the annuitant guilty and sentenced her to five years
of probation, six months of confinement in a residential re-entry center, restitution in the
amount of $29,000, and a special assessment penalty.

      RRB Representative Payee Convicted of Forgery
OI conducted a fraud investigation with an investigator from the New York Department
of Social Services. This investigation revealed that an RRB representative payee had
submitted forged RRB documents to the State of New York to make it appear as
though he qualified for public assistance and food stamps.

This case was referred to the Suffolk County District Attorney’s Office. The
representative payee pled guilty to one count Conspiracy, Fifth Degree. A codefendant
pled guilty to one count Welfare Fraud, Second Degree; one count Grand Larceny,
Second Degree; eight counts Offering a False Instrument for Filing, First Degree; two
counts Criminal Possession of a Forged Instrument, Second Degree; and one count
Conspiracy, Fifth Degree. They were ordered to pay full restitution to the New York
State Department of Health.

      Representative Payee Misuses RRB Benefits
OI initiated this investigation of a representative payee based upon an agency referral.
OI’s subsequent investigation substantiated allegations that from March 2006 through
August 2009 a daughter representative payee had misused her mother’s RRB funds for
her own personal use.




             April 1, 2012– September 30, 2012 │ P a g e 23
       Office of Inspector General for the Railroad Retirement Board

    This case was referred to the U. S. Attorney’s Office for the Western District of New
    York. The U.S. Attorney’s Office filed an information against the representative payee
    for Theft of Public Money. She pled guilty and was sentenced to three years of
    probation, full restitution, and a special assessment fee.

          Railroad Medicare Investigations
During this reporting period, OI obtained 10 convictions and 4 civil judgments in
Railroad Medicare fraud cases. Defendants in these cases received, in the aggregate,
more than 34 years of prison, 21 years of probation, and were ordered to pay more than
$7.5 million in restitution, fines, and civil damages/penalties. 9

All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
General for the U.S. Department of Health and Human Services, the Office of Inspector
General for the Office of Personnel Management, or other agencies responsible for
investigating health care fraud. Interagency cooperation is imperative to effective law
enforcement especially among agencies responsible for investigating the complexities
of health care fraud.

The following are examples of Railroad Medicare cases completed during this reporting
period.

          University Hospital Voluntarily Discloses Improper Medicare
          Claims
OI worked cooperatively on a multi-agency team investigating allegations that a
university hospital physician/professor had submitted false claims to a variety of
governmental and private medical insurance programs, including Railroad Medicare.
The investigation revealed that the physician had billed for services which he did not
perform.

This case was referred to the U.S. Attorney’s Office for the Eastern District of
Pennsylvania. The doctor was found guilty on 73 counts of Health Care Fraud,
73 counts of False Statements in Health Care Matters, and 4 counts of Wire Fraud. He
was sentenced to 87 months of prison, 3 years of probation, over $1 million in

9
  This total reflects the full amount of restitution, fines, and civil damages/penalties ordered. Since OI’s Railroad Medicare
fraud cases are joint investigations, the total dollar amount includes losses to other health care programs.

                   April 1, 2012– September 30, 2012 │ P a g e 24
    Office of Inspector General for the Railroad Retirement Board

restitution, and a $15,000 fine. The doctor also entered into a settlement agreement
with the U.S. Attorney’s Office consenting to pay more than $676,000 to the
government. Additionally, the doctor’s employing hospital entered into a settlement
agreement with the U.S. Attorney’s Office. They agreed to repay the government more
than $412,000.

       Podiatrist Sentenced to Prison

Pursuant to a referral from the Medicare Fraud Strike Force, OI initiated an investigation
into the billing practices of a podiatrist. The joint investigation between OI and the
Department of Health and Human Services, Office of Inspector General revealed that
the doctor fraudulently billed Medicare and private insurance companies for thousands
of medical services which were never provided.

This case was referred to the U.S. Attorney’s Office for the Eastern District of Michigan.
The doctor pled guilty to one count of Health Care Fraud and entered into a plea
agreement with the U.S. Attorney’s Office. He was sentenced to one year and a day of
prison, three years of probation, $300,000 in restitution, and a special assessment.

       Railroad Medicare Provider Enters into Settlement Agreement
Pursuant to a referral from the Medicare Fraud Strike Force, OI conducted a joint
investigation with the Department of Health and Human Services, Office of Inspector
General into fraud allegations against an anesthesiologist. Their subsequent
investigation revealed that the doctor fraudulently billed Medicare for services which
were never provided.

This case was referred to the U.S. Attorney’s Office for the Central District of Illinois.
The doctor entered into a settlement agreement with the U.S. Attorney’s Office
consenting to pay almost $69,000 to the Federal government.

       Doctor Sentenced for Health Care Fraud

Pursuant to a referral from the Medicare Fraud Strike Force, OI initiated this
investigation against an otolaryngologist. The subsequent joint investigation revealed
that the doctor billed Medicare and private insurance companies for services which
were never provided.


              April 1, 2012– September 30, 2012 │ P a g e 25
    Office of Inspector General for the Railroad Retirement Board

This case was referred to the U.S. Attorney’s Office for the District of New Jersey. The
doctor pled guilty to one count of Health Care Fraud and entered into a plea agreement
with the U.S. Attorney’s Office. He was sentenced to 2 years of prison, 3 years of
probation, $725,000 in restitution, and forfeiture of an additional $725,000.

      Durable Medical Equipment Company Owner and Sales
      Representative Pleads Guilty to Health Care Fraud
This case was initiated based upon a referral from the Office of Inspector General for
the Department of Health and Human Services. A joint investigation revealed that a
durable medical equipment company enticed Medicare beneficiaries to order products
and medical equipment by illegally waiving copayments. Once the durable medical
equipment company received the beneficiaries’ Medicare number, they would bill
Medicare for medically unnecessary products and medical equipment.

This case was referred to the U.S. Attorney’s Office for the District of Rhode Island. The
owner of the company pled guilty to two counts of Health Care Fraud, one count Money
Laundering, and one count Introduction of Adulterated and Misbranded Medical Device
into Interstate Commerce. He was sentenced to 37 months of prison, $2.2 million in
restitution, and a fine/penalty of almost $13,000.

Additionally, the durable medical equipment company’s top sales representative pled
guilty to one count Health Care Fraud. She was sentenced to 3 years of probation, 600
hours of community service, and more than $70,000 in restitution.

      Other
OI also investigates allegations of fraud by railroad employers and unions when there is
an indication that they may have submitted false reports to the RRB.

      Railroad Employer Enters Into a Settlement Agreement

Based upon a referral from the agency, OI investigated allegations that a covered
railroad employer failed to pay contributions (taxes) and liens payable under the RUIA.
Subsequent investigation substantiated these allegations.




             April 1, 2012– September 30, 2012 │ P a g e 26
      Office of Inspector General for the Railroad Retirement Board

This case was referred to the U.S. Attorney’s Office for the District of Massachusetts.
The railroad and the U.S. Attorney’s Office entered into a settlement agreement which
required the railroad to pay more than $1 million in contributions and liens. The railroad
also agreed to make timely payments in the future.

         Civil Enforcement Results
 OI may pursue civil actions to obtain judicial orders for the recovery of funds
 fraudulently obtained by annuitants or claimants. These civil actions are typically
 prosecuted under the provisions of the False Claims Act. This statute provides that the
 government may recover up to treble damages as well as $5,500 to $11,000 for each
 false claim submitted.

 During this semiannual reporting period, a total of 13 civil judgments were entered by
 U.S. District Courts for RRB fraud cases totaling more than $2.9 million in damages
 and penalties. 10 Some of these civil actions are pursued under the Department of
 Justice’s Affirmative Civil Enforcement program which provides an efficient and
 effective means to address fraud against the RRB’s programs including the
 unemployment-sickness insurance program and the disability program.




10
  The total amount of damages and penalties listed reflects fraud amounts related to programs administered exclusively
by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in
the disposition resulting from the investigation.


                  April 1, 2012– September 30, 2012 │ P a g e 27
   Office of Inspector General for the Railroad Retirement Board

      Hotline Contacts
The OIG established its hotline to receive complaints concerning suspected fraud,
waste, and abuse in the RRB’s programs and operations. OIG’s hotline provides an
open line of communication for individuals to report suspected criminal activity and
mismanagement/waste of RRB funds.

During this reporting period, OIG’s hotline received 329 contacts in the following
manner: 94% by telephone, 4% by mail, and 3% by email. The following chart
summarizes the disposition of hotline contacts received.



         Referred to Another                                  Hang Ups or Insufficient
         Agency or Company.                                   Information to Make An
                                                              Appropriate Referral.




                                129
                                                 155




                                      45
               Referred to Office
               of Investigations.




             April 1, 2012– September 30, 2012 │ P a g e 28
        Office of Inspector General for the Railroad Retirement Board

           OTHER OVERSIGHT ACTIVITIES

           Occupational Disability Program
The prevention of improper payments remains a priority for the OIG and we continue to
devote investigative and audit resources to strengthening the integrity of the RRB’s
benefit programs including the occupational disability program. In fact, over the last
several years, the Inspector General has identified a wide range of recommendations to
strengthen the integrity of this program; however, a vast majority of these
recommendations have not been implemented and vulnerabilities continue to threaten
program integrity. 11

On September 28, 2012, the Inspector General issued a memorandum to the agency’s
three-member board which contained recommendations aimed at improving the integrity
of the occupational disability program. In this memorandum the Inspector General
identified vulnerabilities in the following areas:

       •   railroad employment verification;
       •   medical verification; and
       •   fraud disqualification.

In the area of railroad employment verification, the Inspector General recommended
that the RRB should contact railroad employers to verify the accuracy of the applicant’s
regular occupation listed on their disability application form and they should contact the
applicant’s current railroad employer to determine whether the employee has retired
from railroad employment. If an employee has retired from railroad employment, they
should not be allowed to receive occupational disability benefits.

The Inspector General recommended improvement to the area of medical verification by
suggesting that railroad employers should be required to obtain an independent medical
exam on all employees applying for RRB disability benefits and that treating physicians’
opinions should be afforded no greater weight than any other examining physician.

In relationship to fraud disqualification, the Inspector General recommended that
program integrity could be improved (in all of the RRB’s benefit programs) by

11
     See page 18 for details relating to our ongoing Long Island Rail Road occupational disability fraud investigation.


                     April 1, 2012– September 30, 2012 │ P a g e 29
     Office of Inspector General for the Railroad Retirement Board

disqualifying individuals convicted of submitting false statements from receiving future
RRB benefits.

The agency owes it to the nation’s railroad workers and their families to fulfill their
mission by paying “benefits to the right people, in the right amounts, in a timely manner,
and … [taking] appropriate action to safeguard [their] customers’ trust funds.” 12

         OIG Alerts
In June 2012, the Inspector General began issuing OIG Alerts to the agency. OIG Alerts
supplement our current investigative and audit processes by providing the Inspector
General with a quick and efficient mechanism to suggest recommendations for agency
improvement. During this semiannual reporting period, the Inspector General issued
four OIG Alerts and made recommendations pertaining to:

     •    form RL-4 (03-07), Disability Reminder Notice, and booklet RB-1D (03-09),
          Employee Disability Benefits;
     •    UI claimant interviews;
     •    obsolete Form G-153 (8-98), Disability Background Report; and
     •    document preservation.

         American Recovery and Reinvestment Act of 2009
During this semiannual period, the OIG continued their efforts to aide in a transparent
American Recovery and Reinvestment Act process by preparing monthly progress
reports in formats developed by the Recovery Accountability and Transparency Board.
These monthly reports are published on the Recovery.gov website and are also
available on the RRB’s Recovery Act Information webpage.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, more than 91% of OI’s current UI fraud cases involve
extended UI benefits.



12
   Railroad Retirement Board, Mission Statement. (Chicago, Illinois: September 2003). Retrieved from
http://www.rrb.gov/general/mission.asp. Accessed September 28, 2012.

                  April 1, 2012– September 30, 2012 │ P a g e 30
    Office of Inspector General for the Railroad Retirement Board

       OUTREACH ACTIVITIES
In addition to audit and investigative activities, OIG staff members perform outreach
activities as a means to further the office’s mission. The following are examples of
outreach activities conducted during this reporting period.

An OI Special Agent spoke at the Association of American Railroads’ General Claims
Conference regarding the OIG.

OI staff members participated in a number of Medicare related meetings including
several task forces. These task forces provide an open forum for health care fraud
related communications and foster a team approach to health care fraud investigations.
Members of the various task forces include representatives from: the Department of
Justice; the Centers for Medicare and Medicaid Services; the Office of Inspector
General for the Department of Health and Human Services; the Office of Inspector
General for the Office of Personnel Management; the Federal Bureau of Investigation;
various State Police agencies; various Medicaid Fraud Control Units; and Medicare
Program Safeguard Contractors. Since Railroad Medicare is a national program, OI
staff members attend task forces in several judicial districts. Participation in Task Force
meetings allows the Special Agents to develop the necessary contacts and information
to ensure that Railroad Medicare fraud losses will be included in Medicare
investigations. They also provide an opportunity for OI Special Agents to become
familiar with the most recent fraud schemes.

The Assistant Inspector General for Audit (AIGA) attended the 2012 Financial
Statement Audit Conference. This conference provided networking opportunities and
strategies for government-wide accountability issues, recovery accountability and
transparency board projects, and creating a productive data analytics shop.

The AIGA also attended the Federal Audit Executive Council’s meeting. This meeting
focused on leveraging data analytics to support audit services.

A number of OA staff members participated in the Chicago Chapter of the Association
of Government Accountants (AGA). AGA provides a variety of networking and training
opportunities for government auditing professionals. OA staff members currently serve
on the Executive Committee as Membership Chair and Website Director.




              April 1, 2012– September 30, 2012 │ P a g e 31
        Office of Inspector General for the Railroad Retirement Board

One OA staff member gave a short presentation on the Chicago Chapter membership
activities at the AGA Sectional Leadership Meeting. There were 123 AGA members in
attendance representing 30 Chapters. Topics discussed in the general sessions
included the role of the national and regional officers in relation to the chapters and a
workshop on membership activities.

           OPERATIONAL ISSUES
The following operational issue impacts the OIG’s ability to effectively carry out its
oversight role. This issue would have to be remedied with legislative change.

           National Railroad Investment Trust
The National Railroad Investment Trust (NRRIT) is a tax-exempt entity independent of
the Federal government which was established by the Railroad Retirement and
Survivors’ Improvement Act of 2001 (RRSIA) to manage and invest railroad retirement
assets. 13 RRSIA does not provide OIG with oversight authority to conduct audits and
investigations of the NRRIT; however, RRSIA does require that the NRRIT report to the
RRB. We have monitored the NRRIT since 2001 and have continually expressed
concerns regarding lack of meaningful oversight. Despite these concerns and
questionable long-term trust fund solvency, the RRB continues to maintain a passive
relationship with the NRRIT.

During this reporting period, the Inspector General reiterated these ongoing concerns in
an August 30, 2012 memorandum to the RRB’s Chairman. Specifically, this
memorandum addressed the significant compensation, bonus, and incentive payments
made to the NRRIT’s investment staff in recent years. Additionally, it addressed the
continuously increasing, and unsubstantiated, administrative expenses paid to the
NRRIT.




13
     As of August 31, 2012, the RRB’s investments in the NRRIT were valued at approximately $23 billion.



                    April 1, 2012– September 30, 2012 │ P a g e 32
       Office of Inspector General for the Railroad Retirement Board

In this memorandum, the Inspector General strongly urged the RRB to:

   •    act on its oversight authority and responsibly enforce a sensible limit on future
        compensation, bonus, and incentive payments to the NRRIT’s staff;
   •    request a detailed audit of the NRRIT’s compensation practices during the
        specific periods discussed in the August 30, 2012 memorandum; and
   •    require adequate support for the NRRIT’s administrative expenses.

A lack of NRRIT investment fund management accountability, transparency, and
stringent financial oversight can be precursors to fraud, waste, and abuse. Within the
Federal agency spectrum there is no comparable example where Federal program
assets are completely outside of the jurisdiction of a Federal agency’s appointed
Inspector General. However, the NRRIT fund which supports the railroad retirement
program remains outside the purview of those appointed to protect the interests of the
program’s beneficiaries and tax-paying public.

To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will strengthen
administrative and financial oversight and ensure fund transparency.

        LEGISLATIVE & REGULATORY REVIEW
The Inspector General Act of 1978, as amended, requires the Inspector General to
review existing and proposed legislation and regulations relating to the programs and
operations of the agency. The OIG has nothing to report for this reporting period.




               April 1, 2012– September 30, 2012 │ P a g e 33
    APPENDICES
                                                                             Page
Appendix Title
                                                                              No.
   A      Office of Inspector General Reports and Other Publicly Available    35
          Papers Issued
   B      Audit Reports with Questioned Costs or with Recommendations         36
          that Funds be Put to Better Use
   C      Report on Receivables, Waivers, and Recoveries                      37
   D      Significant Matters                                                 39
   E      Peer Reviews                                                        41
   F      Reports Prepared by Management                                      42
   G      Reporting Requirements                                              49
   H      Acronyms                                                            50
   I      Legal References                                                    51




         April 1, 2012– September 30, 2012 │ P a g e 34
      Appendix A – Office of Inspector General Reports and Other
      Publicly Available Papers Issued
       •   Inspection of the Railroad Retirement Board’s Representative Payee Monitoring,
           July 27, 2012

       •   Inspection of the Railroad Retirement Board’s Financial Interchange System
           Continuous Monitoring, September 21, 2012

       •   Audit of the Impact of a New Legal Opinion Related to RUIA Section 12(o) Liens,
           September 25, 2012

       •   Audit of the Railroad Medicare Part B Eligibility and Premium Collection Process,
           September 26, 2012

       •   Management Information Report: Projected Financial Impact of Railroad Retirement
           Board Unilateral Disability Freeze Cases on the Financial Interchange,
           September 28, 2012

All publicly available audit reports and papers are available on our website at www.rrb.gov/oig.




             April 1, 2012– September 30, 2012 │ P a g e 35
        Appendix B – Audit Reports with Questioned Costs or
        with Recommendations That Funds be Put to Better Use


                                                Audit Reports
                                                                Amount of         Amount of
                                                    with
                                                                Questioned       Unsupported
                                                 Questioned
                                                                  Costs             Costs
                                                   Costs
A. For which no management decision had
been made by April 1, 2012
                                                     0                 0              0
B. Which were issued from April 1, 2012
through September 30, 2012
                                                     1            $31,000             0
Subtotal (A + B)                                     1            $31,000             0
C. For which a management decision was
made between April 1, 2012 through                   0                 0              0
September 30, 2012
    (i) dollar value of disallowed costs             0                 0              0
    (ii) dollar value of costs not disallowed        0                 0              0
D. For which no management decision had
been made by September 30, 2012
                                                     0                 0              0
E. Report for which no management
decision was made within six months of               0                 0              0
issuance




                                                           Audit Reports With
                                                           Recommendations
                                                                                  Dollar Value
                                                          that Funds Be Put to
                                                               Better Use
A. For which no management decision had been made by
April 1, 2012
                                                                   0                   0
B. Which were issued from April 1, 2012 through
September 30, 2012
                                                                   0                   0
C. Subtotal (A + B)                                                0                   0
    (i) dollar value of disallowed costs                           0                   0
    (ii) dollar value of costs not disallowed                      0                   0
D. For which no management decision had been made by
September 30, 2012
                                                                   0                   0
E. Report for which no management decision was made
within six months of issuance
                                                                   0                   0




                   April 1, 2012– September 30, 2012 │ P a g e 36
      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for the OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of OIG’s activities.

                           Office of Investigations

                         Recoveries realized by the RRB
                          resulting from court-ordered
                          restitution and civil damages
                                                  Amount
                          Fiscal Year
                                                 Recovered
                              1999            $ 855,655
                              2000            $1,038,134
                              2001            $ 990,356
                              2002            $ 785,843
                              2003            $ 947,876
                              2004            $ 646,273
                              2005            $ 844,183
                              2006            $1,281,680
                              2007            $1,347,049
                              2008            $1,389,489
                              2009            $1,097,227
                              2010            $1,118,256
                              2011            $2,293,530
                              2012            $1,417,125




             April 1, 2012– September 30, 2012 │ P a g e 37
                                              Office of Audit

                         Funds to be         Funds
                                                              Receivables                    Recoveries
              Report     put to better      Agreed by                                                 14
                                                              Established         Waivers     to Date
                              use          Management
                99-03          $50,850             $50,850              $50,850    $50,490          $360
                99-14          $83,000             $83,000              $34,423         $0       $30,584
                99-16     $48,000,000         $48,000,000                   $0          $0   $21,100,000
                99-17     $11,000,000         $11,000,000                   $0          $0    $1,604,545
                00-16         $235,000            $235,000               $0             $0      $253,846
                03-06         $306,129                 N/A               $0             $0      $306,129
                04-06         $821,000            $821,000         $604,429         $5,564      $629,688
                04-10         $400,000            $400,000                  $0          $0      $761,151
                05-03       $1,800,000          $1,800,000       $4,485,715 $339,244          $2,090,814
                05-06          $10,000             $10,000                  $0          $0       $42,915
                05-07       $1,070,000          $1,070,000              $49,943         $0       $93,549
                05-10       $2,600,000          $2,600,000                        $311,000
                06-04         $257,000            $257,000
                06-05            $2,100             $2,100                  $0          $0            $0
                06-06         $200,000            $200,000              $13,651         $0       $20,690
                09-02         $600,000            $600,000                $320          $0    $1,256,162
                10-09       $3,355,408          $3,355,408                  $0          $0    $3,355,408
                10-13         $212,038             $92,412                  $0          $0       $18,614
                12-03            $3,483             $3,483                  $0          $0        $3,483




14
     Both overpayments and underpayments are included in this column.



                    April 1, 2012– September 30, 2012 │ P a g e 38
         Appendix D – Significant Matters
The OIG has identified deficiencies in controls over budgetary reporting and information
security as significant matters. A summary of the issues and related recommendations
for corrective action follow.

                                         Budgetary Reporting
The OIG identified budgetary reporting as a material weakness. During our FY 2011
financial statement audit, we found material errors in the RRB’s Statement of Budgetary
Resources which had to be corrected by the agency prior to completion of the audit. In
addition, the OIG also identified numerous instances of ineffective controls for
budgetary transactions. The agency has taken action to address this material weakness
by providing training and implementing a revised review process.

Issue Area                                         Date of Report                Report and Recommendations
Budgetary Reporting                                January 31, 2012              Report OIG 12-04, #1 and #2


                                         Information Security
Risk Management Program
The OIG previously evaluated information security pursuant to the provisions of FISMA
and concluded that the RRB has not yet achieved an effective FISMA-compliant
security program. Although agency managers are working to strengthen controls,
management action in response to the following OIG recommendations had either not
been completed as of the end of the current semiannual reporting period or had not
been in place long enough to permit evaluation.

Issue Area                                           Date of Report             Report and Recommendations
Internal Control Over the Risk
                       15
Management Program                                  July 18, 2005               Report OIG 05-08, #4
                                                    September 30, 2008          Report OIG 08-05, #2 & 7
                                                    November 12, 2009           Report OIG 10-01, #1 & 5
                                                    September 28, 2011          Report OIG 11-10, #1 – 3
                                                    September 28, 2001          Report OIG 11-11, #1 – 4
                                                    September 29, 2011          Report OIG 11-12, #1 – 4
                                                                                                         16
                                                    January 05, 2012            Report OIG 12-02, #2 – 5




15
   Previously known as Certification and Accreditation.
16
   The abstract online summarizes the results of the evaluation. The full report includes information protected from
disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                   April 1, 2012– September 30, 2012 │ P a g e 39
Configuration Management
The OIG also identified a material weakness regarding information technology security
application services because the RRB continues to use an unsupported server for some
major applications. Although the agency has moved some of the servers to the virtual
environment, this action does not alleviate the problems associated with processing
data in an unsupported environment. Uncertainties exist in determining the timeframe in
which this situation will be corrected as well as the necessary resources for completion.

Issue Area                                           Date of Report             Report and Recommendations
                                                                                                      17
Security Configuration Management                   January 5, 2012             Report OIG 12-02,          #7 & 8




17
   The abstract online summarizes the results of the evaluation. The full report includes information protected from
disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                   April 1, 2012– September 30, 2012 │ P a g e 40
      Appendix E – Peer Reviews
Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
requires Inspectors General to provide information regarding peer reviews in their
Semiannual Reports to the Congress.

      Office of Audit
In general, Federal audit organizations may receive a peer review rating of pass, pass
with deficiencies, or fail.

The results of OA’s most recent peer review (which was for the year ended
March 31, 2009) were transmitted on August 24, 2009. OA received a peer review
rating of pass. This peer review did not contain any recommendations.
During this semiannual reporting period, OA completed their peer review of the audit
organization for the Office of the Special Inspector General for the Troubled Asset Relief
Program (SIGTARP). OA concluded that the system of quality control for SIGTARP, in
effect for the year ended March 31, 2012, has been suitably designed and complied
with to provide SIGTARP with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. SIGTARP
earned a peer review rating of pass. No formal recommendations were identified.

      Office of Investigations
During the peer review process, Federal OIG investigative organizations, in general,
may receive a peer review rating of fully compliant, compliant, or not compliant with the
quality standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines for Inspectors General with law
enforcement authority based on Section 6(e) of the Inspector General Act, as amended.
The results of OI’s most recent peer review (which was for the FY ended September 30,
2011) were transmitted on February 9, 2012. OI received a peer review rating of pass.
This peer review did not contain any recommendations.
OI did not conduct any peer reviews during this semiannual reporting period.




             April 1, 2012– September 30, 2012 │ P a g e 41
      Appendix F – Reports Prepared by Management


               Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                            Number of      Disallowed
September 30, 2012                                      Audit Reports     Costs

A.   Audit reports, with management decisions, on
     which final action had not been taken at the            0             $0
     beginning of the period.
B.   Audit reports on which management decisions
     were made during the period.                            0             $0

C.   Total audit reports pending final action during
     the period. (A + B)                                     0             $0

D.   Audit reports on which final action was taken
     during the period.

     1.    Recoveries

           (a) Collections and offsets                       0             $0

           (b) Property                                      0             $0

           (c) Other                                         0             $0

     2.    Recovery Waived                                   0             $0

     3.    Total of 1 and 2                                  0             $0

E.   Audit reports needing final action at the end of
     the period (C - D.3).                                                 $0
                                                              0




             April 1, 2012– September 30, 2012 │ P a g e 42
                 Management Report on Final Action on Audits with
                 Recommendations to Put Funds to Better Use for the
                 6-Month Period Ending September 30, 2012
                                                                    Number of                 Funds to be Put
                                                                   Audit Reports               to Better Use
A.     Audit reports, with management decisions, on
       which final action had not been taken at the
       beginning of the period.                                           6                     $4,253,403*

B.     Audit reports on which management decisions
       were made during the period.                                       0                          $0

C.     Total audit reports pending final action during
       the period. (A + B)                                                6                     $4,253,403

D.     Audit reports on which final action was taken
       during the period.

       1.     Value of recommendations implemented
              (completed)                                                 0                          $0

       2.     Value of recommendations that
              management concluded should not or
              could not be implemented (completed)                        0                          $0

       3.     Total of 1 and 2                                            0                          $0

E.     Audit reports needing final action at the end of
       the period (C - D.3)                                               6                     $4,253,403




     * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
     Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits; $200,000 from Audit
     Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
     Act; $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
     Management; $3,355,408 from Audit Report 10-09, Audit of Internal Controls over Medicare Premium
     Transfers Between the Railroad Retirement Board and the Centers for Medicare and Medicaid Services;
     $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after Beneficiaries’ Dates of
     Death; and $3,483 from 12-03 Evaluation of the Railroad Retirement Board’s Oversight of Railroad
     Employer Compliance.




                     April 1, 2012– September 30, 2012 │ P a g e 43
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2012
                                                   Disallowed Funds to be Put
Report                                   Date        Costs     to Better Use       Reason Action Not Completed
Review of Information Security at the   02/5/02      NONE          NONE       Information Services has closed 26 out
Railroad Retirement Board (02-04)                                             of 28 recommendations. Currently in
                                                                              the process of updating all pc’s and
                                                                              servers with new software and
                                                                              procedures are being reviewed.

Review of Internal Control Over the     05/5/05      NONE          NONE       The Chief Actuary is still reviewing their
Actuarial Projection Process (05-04)                                          options to best implement this
                                                                              recommendation.

Review of LAN, LAN Security Scan and    06/7/05      NONE          NONE       These contractor-prepared confidential
Web-based Applications (DSD)                                                  reports contained 45
                                                                              recommendations, with 43 closed thus
                                                                              far. Documentation was submitted for
                                                                              remaining 2 recommendations to OIG
                                                                              for review.

Review of Access Controls in the End-   07/18/05     NONE          NONE       Information Services has closed 14 of
User Computing General Support                                                15 recommendations in this
System (05-08)                                                                confidential report. Risk assessment
                                                                              was done and it was determined that
                                                                              contractor assistance will remediate
                                                                              last remaining recommendation by
                                                                              FY2013.

Fiscal Year 2005 Evaluation of          09/28/05     NONE          NONE       Bureau of Information Services is
Information Security at the Railroad                                          taking steps to train IT owners to use
Retirement Board (05-11)                                                      SharePoint POAM website. Work
                                                                              continues.

Accuracy and Reliability of GPRA        01/30/06     NONE          NONE       Programs have closed six of the seven
Performance Measures: Timeliness of                                           recommendations. Last
Non-Disability Survivor Annuity                                               recommendation has been delayed
Payments (06-03)                                                              due to higher priority project.

Review of Compliance with the           04/12/06     NONE          $2,100     Programs staff closed four of the five
Provisions of the Railroad Retirement                                         recommendations. Requirements are
Act Governing the Initial Award of                                            currently in development for
Benefits (06-05)                                                              programming changes to the EDM
                                                                              system.

Review of the Termination and           05/24/06     NONE         $200,000    Analysis completed and draft report
Suspension of Benefits Paid Under the                                         submitted for review prior to request for
Railroad Retirement Act (06-06)                                               IT changes.




                          April 1, 2012– September 30, 2012 │ P a g e 44
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2012
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use      Reason Action Not Completed
Review of Incident Handling and            08/24/06     NONE          NONE       Contract option to draft incident
Reporting at the Railroad Retirement                                             response plan was just approved.
Board (06-09)
Audit of the DAISY/CHICO Component         03/9/07      NONE          NONE       Recent IT changes are pending review
Application of the RRA Benefit Payment                                           as resources were diverted to higher
Major Application System (07-02)                                                 priority projects.

Audit of the State Wage Match Data         03/28/07     NONE          NONE       Coordination with outside agencies is
Transmission Controls (07-04)                                                    required. Programs completed and
                                                                                 implemented one of the two remaining
                                                                                 recommendations. The last
                                                                                 recommendation is schedule to be
                                                                                 completed in FY13.

Evaluation of the Railroad Retirement      07/30/07     NONE          NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources are needed. Of
                                                                                 the 16 recommendations, 13 have
                                                                                 been closed, and documentations were
                                                                                 submitted to the OIG in FY12 for the
                                                                                 remaining 3 recommendations.
                                                                                 Pending OIG review.

Audit of Federal Income Taxes Withheld     07/30/07     NONE          NONE       Coordination is required with another
from Railroad Retirement Annuities                                               org. Five of the six recommendations
(07-07)                                                                          have been closed, with the remaining
                                                                                 one targeted for completion in FY13.

Fiscal Year 2007 Evaluation of             09/27/07     NONE          NONE       Policy and procedures are still being
Information Security at the Railroad                                             developed. Recommendations are
Retirement Board (07-08)                                                         targeted for completion in FY13.

Audit of Controls to Safeguard Sensitive   09/27/07     NONE          NONE       Coordination is required with outside
Personally Identifiable Information                                              contractor on 1 recommendation and
(07-09)                                                                          work plans, policy and procedures are
                                                                                 still being developed for all other
                                                                                 recommendations. Target date for
                                                                                 completion is FY13.

Fiscal Year 2007 Financial Statement       03/6/08      NONE          NONE       Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                               implemented enhanced controls in
                                                                                 FY10. OIG will reassess once sufficient
                                                                                 time has lapse.

Evaluation of Information Security for     09/26/08     NONE          NONE       Work plans, policy and/or procedures
the RRB’s Financial Interchange Major                                            continue with target for completion in
Application – Abstract (08-03)                                                   FY13.



                          April 1, 2012– September 30, 2012 │ P a g e 45
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2012
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use      Reason Action Not Completed
Fiscal Year 2008 Evaluation of             09/26/08     NONE          NONE       Coordination is required with outside
Information Security at the RRB (08-05)                                          contractor.

Fiscal Year 2008 Financial Statement       03/24/09     NONE         $600,000     Review and updating of
Audit Letter to Management (09-02)                                                documentations along with case
                                                                                  reviews are currently being performed
                                                                                  on remaining recommendations. Work
                                                                                  continues.

Audit of Internal Control Over Accounts    03/31/09     NONE          NONE        Remaining recommendation is
Payable (09-03)                                                                   dependent on the replacement of FFS.

Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE        Additional documentations were
Program at Palmetto Government                                                    requested which requires coordination
Benefits Administrators (09-04)                                                   with outside agency.

Audit of the General and Application       09/30/09     NONE          NONE        Documentation has been submitted for
Controls in the Financial Management                                              2 of the 3 remaining recommendations
Major Application System (09-05)                                                  and is pending OIG review. Also in the
                                                                                  process of developing work plans for
                                                                                  validation study of remaining
                                                                                  recommendation with target completion
                                                                                  in FY13.

Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE        The Bureau of Information Services will
Information Security (10-01)                                                      review and take the necessary
                                                                                  action(s). Target completion in FY13.

Fiscal Year 2009 Financial Statement       03/11/10     NONE          NONE        Awaiting OIG reassessment based on
Audit Letter to Management (10-03)                                                documentation submitted to OIG for
                                                                                  implementation on last open
                                                                                  recommendation.

Review of Statistical Methods Employed     05/04/10     NONE          NONE        The Bureau of Actuary (BOA) is
in the Financial Interchange                                                      reviewing documentation and will take
Determination (10-06m)                                                            the necessary action(s) and coordinate
                                                                                  with the Bureau of Information Services
                                                                                  for programming services.

Review of the Technical Approach and       05/19/10     NONE          NONE        The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                 documentation and will take the
Annual Financial Interchange Amount                                               necessary action(s).
for the Year Ended September 30, 2008
(10-07m)




                          April 1, 2012– September 30, 2012 │ P a g e 46
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2012
                                                       Disallowed Funds to be Put
Report                                        Date       Costs     to Better Use      Reason Action Not Completed
Audit of Internal Controls over Medicare    05/21/10     NONE       $3,355,408 Additional documentation was
Premium Transfers Between the                                                     requested by OIG.
Railroad Retirement Board and Centers
for Medicare and Medicaid Services
(10-09)

Review of the Accuracy of the Financial     05/25/10    NONE          NONE       The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                             documentation and will take the
Ended September 30, 2008 (10-10)                                                 necessary action(s).

Audit of Unilateral Disability Freeze       08/12/10    NONE          NONE       Additional documentation was
Determinations (10-11)                                                           requested by OIG and work continues
                                                                                 in the development of work plans,
                                                                                 policy and/or procedures with target
                                                                                 completion in FY13.

Audit of the Account Benefits Ratio         09/29/10    NONE          NONE       The Bureau of Actuary reviewed and
(10-12)                                                                          will take the necessary action(s).

Railroad Medicare Services Billed with      09/30/10    NONE         $92,412     Coordination continues with outside
Dates of Service after the Beneficiaries’                                        organization.
Dates of Death (10-13)

Fiscal Year 2010 Evaluation of              11/05/10    NONE          NONE       Documentation has been submitted for
Information Security at the Railroad                                             remaining 2 recommendations and is
Retirement Board - Abstract (11-01)                                              pending OIG review.

Audit of Controls Over Railroad             04/20/11    NONE          NONE       Coordination is required with outside
Medicare Contract Costs (11-06)                                                  organization.

Audit of Railroad Retirement Act            06/29/11    NONE          NONE       Programs is working with Bureau of
Benefits Overpayments and Internal                                               Information Services pending
Controls (11-07)                                                                 implementation of systems changes
                                                                                 and is coordinating with an outside
                                                                                 organization.

Review of the Railroad Retirement           07/07/11    NONE          NONE       Documentations were submitted for 6
Board’s Security Patch Management                                                recommendations and are pending
Process – Abstract (11-08)                                                       OIG review. For 2 recommendations
                                                                                 the OIG has requested additional
                                                                                 documentation, and work continues on
                                                                                 the others.

Audit of Internal Controls Over             08/04/11    NONE          NONE       Documentation has been submitted for
Dummy Vendor Transactions (11-09)                                                remaining 2 recommendations and is
                                                                                 pending OIG review.




                           April 1, 2012– September 30, 2012 │ P a g e 47
Management Statement on Resolved Audit Reports Over 12 Months
     Old with Final Action Pending as of September 30, 2012
                                                   Disallowed Funds to be Put
Report                                    Date       Costs     to Better Use       Reason Action Not Completed
Inspection of the Railroad Retirement   09/28/11     NONE          NONE       Bureau of Information Services is
Board’s Agency Enterprise General                                             currently reviewing the
Information Support System                                                    recommendations to develop work
Certification and Accreditation –                                             plans, policy, and/or procedures.
Abstract (11-10)

Inspection of the Railroad Retirement   09/28/11     NONE          NONE       Pending contract for FY13 continuous
Board’s Financial Management                                                  monitoring.
System’s Continuous Monitoring
Program – Abstract (11-11)

Evaluation of the Railroad Retirement   09/29/11     NONE          NONE       Work plans, policy, and/or procedures
Board’s Benefit and Payment                                                   are currently pending, in addition to
Operations System Continuous                                                  coordination is required with outside
Monitoring – Abstract (11-12)                                                 contractor.




                        April 1, 2012– September 30, 2012 │ P a g e 48
       Appendix G – Reporting Requirements
Act Reference       Inspector General Reporting Requirements              Page(s)
Section 4(a) (2)    Review of Legislation and Regulations                     33
Section 5(a) (1)    Significant Problems, Abuses, and Deficiencies        39 – 40
Section 5(a) (2)    Recommendations With Respect to Significant           39 – 40
                    Problems, Abuses, and Deficiencies
Section 5(a) (3)    Prior Significant Recommendations Not Yet             39 – 40
                    Implemented
Section 5(a) (4)    Matters Referred to Prosecutive Authorities              3, 17
Section 5(a) (5)    Instances Where Information Was Refused                  None
Section 5(a) (6)    List of Audit Reports                                       35
Section 5(a) (7)    Summary of Each Significant Report                      4 – 13
Section 5(a) (8)    Statistical Tables on Management Decisions on               36
                    Questioned Costs
Section 5(a) (9)    Statistical Tables on Management Decisions on               36
                    Recommendations That Funds be Put to Better
                    Use
Section 5(a) (10)   Summary of Each Audit Report Over 6 Months                  14
                    Old for Which No Management Decision Has
                    Been Made
Section 5(a) (11)   Description and Explanation for Any Significant         None
                    Revised Management Decision
Section 5(a) (12)   Information on Any Significant Management                    7
                    Decisions With Which the Inspector General
                    Disagrees



Act Reference       Management Reporting Requirements                     Page(s)
Section 5(b) (1)    Comments Deemed Appropriate                         Transmittal
                                                                             Letter
Section 5(b) (2)    Statistical Table on Final Action on Disallowed             42
                    Costs
Section 5(b) (3)    Statistical Table on Final Action to Put Funds to           43
                    Better Use
Section 5(b) (4)    Statement on Audit Reports With Final Action          44 – 48
                    Pending




              April 1, 2012– September 30, 2012 │ P a g e 49
      Appendix H – Acronyms
Acronym    Explanation

AEGIS      Agency Enterprise General Information Support
           System
AGA        Association of Government Accountants
AIGA       Assistant Inspector General for Audits
FI         Financial Interchange
FISMA      Federal Information Security Management Act of 2002
FY         Fiscal Year
IRS        Internal Revenue Service
MIRTEL     Medicare Information Recorded, Transmitted, Edited
           and Logged System
NRRIT      National Railroad Retirement Investment Trust
OA         Office of Inspector General for the Railroad
           Retirement Board – Office of Audit
OI         Office of Inspector General for the Railroad
           Retirement Board – Office of Investigations
OIG        Office of Inspector General for the Railroad
           Retirement Board
RRA        Railroad Retirement Act
RRB        Railroad Retirement Board
RRSIA      Railroad Retirement and Survivors’ Improvement Act
           of 2001
RUIA       Railroad Unemployment Insurance Act
SI         Sickness Insurance
SIGTARP    Office of the Special Inspector General for the
           Troubled Asset Relief Program
UI         Unemployment Insurance
USTAR      Universal System Tracking and Reporting




          April 1, 2012– September 30, 2012 │ P a g e 50
      Appendix I – Legal References

Federal:
American Recovery and Reinvestment Act of 2009 – P.L. 111–5
Attempt to Evade and Defeat Tax – 26 U.S.C. § 7201
Dodd-Frank Wall Street Reform and Consumer Protection Act – P.L. 111-203
Failure to Report Information to the RRB – 45 U.S.C. § 231(l)
False Claims Act – 31 U.S.C. §§ 3729 – 3733
False Statements – 18 U.S.C. § 1001, et. seq.
False Statements in Health Care Matters – 18 U.S.C. § 1035
Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.
Health Care Fraud – 18 U.S.C. § 1347
Inspector General Act of 1978, as amended – 5 U.S.C. App. 3
Introduction of Adulterated and Misbranded Medical Device into Interstate Commerce –
21 U.S.C. § 331(a)(2)
Money Laundering – 18 U.S.C. § 1957
Railroad Retirement Act – 45 U.S.C. § 231, et. seq.
Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.
Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90
Railroad Retirement Solvency Act of 1983 – P.L. 98–76
Social Security Act – 42 U.S.C. § 301, et seq.
Tax Evasion – 26 U.S.C. § 7201
Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

State:
Conspiracy, Fifth Degree– N.Y. Pen. Law § 105.05
Criminal Possession of a Forged Instrument, Second Degree – N.Y. Pen. Law § 170.25
Grand Larceny, Second Degree – N.Y. Pen. Law § 155.40
Offering a False Instrument for Filing, First Degree – N.Y. Pen. Law § 175.35
Theft by Deception – Ohio Rev. Code Ann. § 2913.02(A)(3)
Welfare Fraud, Second Degree – N.Y. Pen. Law § 158.20


             April 1, 2012– September 30, 2012 │ P a g e 51
                        REPORT

       FRAUD, WASTE, AND ABUSE




               Call the OIG Hotline:
                      1-800-772-4258

              Email: hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to persons who provide
information via email. Do not send information by email that you
                do not want a third party to read.

            Write: RRB, OIG Hotline Officer
                   844 N. Rush Street
             Chicago, Illinois 60611-2092
